CO KLE

2311 Douglas Street i E-Mail Address:
Omaha, Nebraska 68102-1214 L € 8 a | B t ie fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-520

ALAN PHILIPP, et al.,
Conditional Cross-Petitioners,

Vv.
FEDERAL REPUBLIC OF GERMANY, a foreign state,
and STIFTUNG PREUSSICHER KULTURBESITZ,
Conditional Cross-Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of December, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION TO CONDITIONAL
CROSS-PETITION FOR WRIT OF CERTIORARI in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
DAVID L. HALL JONATHAN M. FREIMAN
WIGGIN AND DANA LLP Counsel of Record
Two Liberty Place TAHLIA TOWNSEND
50S. 16th Street TADHG DOOLEY
Suite 2925 BENJAMIN M. DANIELS
Philadelphia, PA 19102 DAVID R. ROTH
(215) 998-8310 WIGGIN AND DANA LLP
265 Church Street
P.O. Box 1832
New Haven, CT 06508-1832
(203) 498-4400
jfreiman@wiggin.com

Counsel for Conditional Cross-Respondents

Subscribed and sworn to before me this 13th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

crease, 6 Ollie Qudeow-h. Glebe

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38901
 

 

Attorneys for Conditional Cross-Petitioners

Nicholas Michael O'Donnell
Counsel of Record

Party name: Alan Philipp, et al.

Sullivan & Worcester LLP 617-338-2814
One Post Office Square
Boston, MA 02109

nodonnell@sullivaniaw.com

 

 
